HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Health Care Service Corporation, (A-07-94-00763)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Health Care Service
Corporation," (A-07-94-00763)
August 8, 1994
Complete Text of Report is available in PDF format
(1.71 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Under its Medicare contracts, Health Care Service Corporation (HCSC) was required
to identify and report pension assets and costs separately (called segmentation)
for its Medicare line of business. This required HCSC to determine Medicare's
pension assets as of 1986 and then annually determine Medicare's pension costs
and assets for subsequent years. The HCSC's update of the Medicare segments'
assets from January 1, 1986 to January 1, 1992 understated the Medicare segments'
assets by $1,055,458. The understatement primarily occurred because HCSC did
not (1) properly calculate Medicare's pension costs and (2) consider participant
transfers into and out of their Medicare lines of business. We recommended that
HCSC increase the January 1, 1992 Medicare pension assets by $1,055,458.